DOE/IG-0450




           AUDIT
          REPORT

                                              THE
                                  U.S. DEPARTMENT OF ENERGY'S
                                     NON-NUCLEAR MATERIALS
                               INVENTORY AT THE KANSAS CITY PLANT




                                                 JULY 1999




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                                               July 26, 1999



MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman (Signed)
                       Inspector General

SUBJECT:               INFORMATION: Report on "The U.S. Department of Energy's Non-Nuclear
                       Materials Inventory at the Kansas City Plant"

BACKGROUND

The Department of Energy (Department) maintains the majority of non-nuclear components of nuclear
weapons at its Kansas City Plant. Allied Signal Federal Manufacturing and Technologies (Allied Signal)
manages and operates the plant, while the Albuquerque Operations Office and its Kansas City Area Office
are responsible for administering the contract with Allied Signal.

In recent years, the United States has significantly reduced the number of weapons maintained in the
stockpile. As a result, a large quantity of non-nuclear materials accumulated at the Kansas City Plant. The
value of the inventory, as of October 1998, was $575 million. The objective of this audit was to determine if
Department and contractor officials were identifying and disposing of non-nuclear materials inventory for
which there was no current or future designated need.

RESULTS OF AUDIT

A preliminary review by the Kansas City Plant indicated that there was no current or future designated need
for non-nuclear materials valued at about $275 million. This represented about 47 percent of the total non-
nuclear materials inventory as of October 1998. However, the Albuquerque Operations Office had not made
a final decision on whether to retain or dispose of these items. Although there were several underlying
causes, we concluded that Department and contractor officials had not given priority attention to the issue.
Further, they had not developed a plan to reduce the non-nuclear materials inventory. As a result, the
Department incurred additional storage costs that exceeded $2 million annually for the excess inventory and,
the Department did not benefit from the revenue that could have been derived from the sale of any
marketable portion of the unneeded materials. We recommend that the Deputy Assistant Secretary for
Military Application and Stockpile Management: (1) improve procedures for hndling materials inventory,
(2) create an inventory management plan to address the unneeded inventory, (3) dispose of all materials
determined to be excess, and (4) verify that the inventory management plan is implemented.

MANAGEMENT REACTION

The Assistant Secretary for Defense Programs agreed with the finding and recommendations and provided a
corrective action plan for reducing the inventory.

Attachment

cc: Deputy Secretary
    Under Secretary
The U.S. Department Of Energy's Non-Nuclear Materials Inventory At The
Kansas City Plant



TABLE OF
CONTENTS



                       Overview

                       Introduction And Objective ................................................................ 1

                       Conclusions And Observations ........................................................... 1


                       Management Of Non-Nuclear Materials Inventory

                       Details Of Finding.............................................................................. 3

                       Recommendations And Comments ..................................................... 5


                       Appendices

                       1. Scope And Methodology .............................................................. 7

                       2. Other Matters ................................................................................. 9

                       3. Summary of Past Office Of Inspector General Audits
                          Of Kansas City Plant Activities .................................................. 10
OVERVIEW

INTRODUCTION AND   In 1993, the Department of Energy (Department) officially designated
OBJECTIVE          the Kansas City Plant as the consolidated site for the majority of non-
                   nuclear components of nuclear weapons. The Plant is managed and
                   operated by Allied Signal--the contractor responsible for providing
                   maintenance, logistic support, engineering, technical, administrative, and
                   other services necessary to accomplish efficient operations. As of
                   October 1998, a large materials inventory (composed of individual parts
                   used to assemble weapons components) was stored at the Kansas City
                   Plant. The total value of this inventory was $575 million.

                   The Department's Albuquerque Operations Office (Albuquerque) and its
                   Kansas City Area Office were responsible for managing the non-nuclear
                   materials inventory at the Kansas City Plant. These entities were also
                   responsible for administering the contract with Allied Signal. The Office
                   of Defense Programs had overall responsibility for overseeing
                   Albuquerque and Kansas City operations and directing the Department's
                   Military Application and Stockpile Management Program.

                   About 267,000 square feet of warehouse space at the Kansas City Plant
                   had been dedicated to warehouse materials. The non-nuclear materials
                   inventory occupied about 200,000 square feet of that space. However, a
                   July 1996 study for consolidating nuclear weapons complex production
                   operations recommended reducing the size of the Kansas City Plant. In
                   accordance with this study, officials planned to reduce the available
                   warehouse space to 167,000 square feet.

                   The objective of this audit was to determine if Department and
                   contractor officials were identifying and disposing of non-nuclear
                   materials inventory for which there was no current or future designated
                   need.


                   The Department was not effectively identifying and disposing of
CONCLUSIONS AND
                   unneeded non-nuclear materials inventory at the Kansas City Plant. As
OBSERVATIONS
                   of October 1998, materials valued at about $275 million had not been
                   reviewed and approved for retention or disposal. These materials were
                   kept in the Plant's inventory even though Kansas City officials had made
                   a preliminary determination that there was no current or future need for
                   these materials. A final decision on the materials was not made because
                   the Kansas City Plant's inventory procedures were not detailed enough,
                   and management had not given priority attention to this issue and had
                   not developed a plan on how to reduce the inventory. As a result,



Page 1                                                       Introduction And Objective/
                                                          Conclusions and Observations
         Kansas City Plant incurred over $2 million annually in additional storage
         costs, and it did not benefit from the revenue that could have been
         derived from the sale of any marketable portion of the unneeded
         materials.

         The conclusions of this report parallel those of a concurrent audit on the
         Department's chemicals and materials inventory. This audit, which is in
         process, found that the recommendations made in a 1996 Departmental
         review of chemicals and materials had not been implemented. Both
         audits indicate a need for a more proactive approach to managing the
         Department's inventories.

         Management should consider the issues discussed in this audit when
         preparing its yearend assurance memorandum on internal controls.


                                               _____ (Signed)_________
                                               Office of Inspector General




Page 2                                          Conclusions And Observations
Management Of Non-Nuclear Materials Inventory

Non-Nuclear Materials   As of October 1998, non-nuclear materials valued at about $275 million
Inventory Exceeded      at the Kansas City Plant had not been reviewed and approved for
Identified Need         retention or disposal. Plant officials made a preliminary determination
                        that these materials were no longer needed. However, Albuquerque had
                        not made a final decision on retention or disposition. Albuquerque's
                        review and approval was necessary since it had the decision-making
                        authority on the quantity of non-nuclear materials needed to meet
                        nuclear weapons stockpile requirements. The potentially unneeded
                        inventory represented approximately 50 percent of the value of the non-
                        nuclear materials at the facility. It consisted of approximately 10.8
                        million non-nuclear parts, and plant officials estimated that the inventory
                        occupied about 40 percent of the total warehouse space dedicated to
                        non-nuclear materials.


Policies And Guidance   The Albuquerque Development and Production Manual (Manual) for
Required Inventory      weapons activities established high-level policies and guidance for
Determination           managing materials inventory. The Manual required Albuquerque and
                        contractors to annually review and adjust the non-nuclear materials
                        inventory based on program need. Albuquerque policy was to maintain
                        an inventory of only war reserve material for which there was an existing
                        or planned requirement. Material determined to be excess to
                        requirements was to be made available for other uses. If no other uses
                        were identified, the material was to be disposed of in accordance with
                        approved procedures. Detailed material management procedures are
                        generated by the contractor.


                        The Department did not dispose of unneeded materials because
Inventory Management
                        procedures for managing the inventory were not detailed enough and
System Had Weaknesses   Department and contractor staff had not considered the review of
                        potentially unneeded inventory a high priority. As a consequence, they
                        had not developed a comprehensive plan on how to manage the
                        inventory and dispose of materials for which there was no current or
                        future designated need.

                        Albuquerque's management guidance called for an annual evaluation of
                        the inventory to determine continued retention or disposition. These
                        procedures, however, did not fully define the process and the factors
                        that were to be used in making this determination. For example, they
                        did not discuss the value of each part in relation to its storage cost, the
                        replacement cost, or the ease of replacement. In addition, a Kansas City



Page 3                                                                        Details Of Finding
                      official confirmed that the annual listing provided to Albuquerque did
                      not contain sufficient information to make a final determination. As a
                      result, the potentially unneeded inventory could not be fully evaluated to
                      determine whether it should be retained or made available for other uses.

                      In November 1997, as a result of an effort to reduce warehouse space,
                      the Kansas City Plant developed new procedures to evaluate its non-
                      nuclear materials inventory. This involved a step-by-step evaluation by
                      the weapons program staff of each part in the inventory. The
                      examination included assessing replacement costs, ease of replacement,
                      and other key factors that had not been included in Albuquerque's
                      inventory management procedures. In our view, this was a positive step
                      in assessing the need for materials inventory at the plant. This process
                      would have assisted Albuquerque in making decisions on inventory
                      retention.

                      In commenting on the potentially unneeded inventory, officials from
                      both Department and contractor offices stated that retention or
                      disposition of non-nuclear materials had not always been a high priority.
                      In the past, the Department had enough warehouse space to store
                      materials, and priority had been given to supporting the production and
                      maintenance of the existing stockpile. This perspective began to change
                      in 1995 when Kansas City Area Office officials recognized that excess
                      materials existed at the plant. They advocated the development of a
                      strategy to reduce the materials inventory to an acceptable level.
                      However, a detailed plan with clear goals and benchmarks was not
                      developed. Such a plan would have aided in the reduction of the
                      materials inventory at the plant and would have been consistent with the
                      objectives of the Government Performance and Results Act of 1993.
                      This act requires managers to establish goals, performance measures,
                      and milestones for key program activities.


                      The Department has an opportunity to save money by evaluating and
                      disposing of unneeded non-nuclear materials inventory at the Kansas
Materials Inventory   City Plant. We determined that as much as $2 million could be saved
Savings Can Be        annually if management disposed of the entire $275 million of materials
Achieved              inventory that had not been reviewed and approved for retention or
                      disposal. This estimate was based on the inventory occupying 40
                      percent of the warehouse (200,000 square feet) and space costing $26
                      per square foot, including overhead costs. Savings could also be
                      achieved through the disposition of items in the inventory. Some of



Page 4                                                                     Details Of Finding
                  these items could be made available for appropriate processing and sale,
                  and the proceeds could be used to offset the Kansas City Plant storage
                  costs.


                  We recommend that the Deputy Assistant Secretary for Military
RECOMMENDATIONS   Application and Stockpile Management give priority attention to
                  resolving the materials inventory issue at the Kansas City Plant by
                  implementing the following actions:

                  1. Improve current procedures for handling materials inventory through
                     directive or by amending the Development and Production Manual.
                     At a minimum, procedures need to be revised to include specific
                     steps on evaluating and determining the need for non-nuclear
                     materials.

                  2. Create an inventory management plan to address the potentially
                     unneeded inventory. At a minimum, the plan should have definitive
                     goals, performance measures, and milestones for the justification or
                     disposition of the inventory.

                  3. Dispose of all materials determined to be excess and, where
                     appropriate, make these items available for sale to others.

                  4. Verify that Albuquerque, the Kansas City Area Office, and the
                     Kansas City Plant fully implement the inventory management plan.


                  Overall, Defense Programs agreed with the finding, conclusions, and
                  recommendations and stated that corrective actions are in process.
MANAGEMENT        Officials indicated that the Development and Production Manual has
REACTION          been revised to provide additional guidance and that the Kansas City
                  Plant has provided Albuquerque with macro-level plans and schedules
                  for inventory reduction. Quarterly reviews will be instituted to monitor
                  progress and implementation of the inventory management plan.
                  Management estimates that it will take approximately 5 years to reduce
                  the current excess materials inventory.

                  In commenting on the $2 million of expected cost savings, officials
                  stated that a reduction in inventory would not result in overhead savings.
                  Overhead costs associated with any vacated warehouse space would be
                  reallocated to other parts of the program. In addition, believed that
                  Defense Programs would incur costs to reduce and vacate unneeded
                  warehouse space.

Page 5                                              Recommendations And Comments
           Defense programs officials also believed that failure to give priority
           attention to reducing the inventory, and not the lack of definite
           procedures, was the primary reason decisions had not been made
           regarding the non-nuclear materials inventory.


AUDITOR    Management's proposed actions are responsive to the recommendations.
COMMENTS




Page 6                                        Recommendations And Comments
Appendix 1

SCOPE         The audit involved the portion of the Kansas City Plant non-nuclear
              materials inventory that was identified as not needed for current or
              future mission requirements as of October 1998. The audit was
              performed from October 1998 through April 1999 at Defense Programs
              in Washington, DC; the Weapons Program Division, Albuquerque
              Operations Office, Albuquerque, New Mexico; and at the Kansas City
              Area Office and Plant in Kansas City, Missouri.

METHODOLOGY   To accomplish the audit objective, we:

              • Interviewed Defense Programs Headquarters personnel concerning
                inventory practices and responsibilities;

              • Interviewed Albuquerque personnel and reviewed Albuquerque
                policies and procedures relating to weapons materials inventory
                management;

              • Interviewed Kansas City Area Office and contractor officials and
                reviewed inventory documentation;

              • Visited the KPMG Peat Marwick office in Kansas City, Missouri, to
                review audit work papers related to materials inventory prepared as
                part of the Department's annual financial audit;

              • Reviewed the Report of the Materials in Inventory Initiative Taking
                Stock: A Look at the Opportunities and Challenges Posed by
                Inventories from the Cold War Era (DOE/EM-0275, January 1996);

              • Reviewed the General Accounting Office report Department of
                Energy: Management of Excess Property (GAO/RCED-99-3,
                November 4, 1998); and

              • Performed walk-throughs of warehouses at the Kansas City Plant.


              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              rely extensively on computer-processed data. The materials inventory



Page 7                                                      Scope And Methodology
Appendix 1


             listing was obtained from the Kansas City Plant's computerized
             inventory management system. The reliability of this data was
             examined as part of the review of plant inventory in the annual financial
             audit.

             We discussed the finding with Albuquerque and Kansas City Plant
             managers on May 5, 1999, and with Defense Programs officials on May
             11, 1999.




Page 8                                                    Scope And Methodology
Appendix 2

                                           OTHER MATTERS


As part of our audit of the Kansas City Plant, we observed certain other items that were not part of the non-
nuclear materials inventory that Kansas City should reevaluate for mission requirements. These items were
located both at the Kansas City Plant and at offsite warehouse facilities. In discussions with contractor
officials, we found three items that should be considered for transfer or disposition. They were:

• Polystyrene - The Kansas City Plant maintained more than 200 pallets of polystyrene for Lawrence
  Livermore National Laboratories. Due to the nature of this material, special storage arrangements were
  required offsite. The polystyrene has been stored offsite since 1984. To date, the total storage cost of
  the material exceeded its value. The annual storage cost was over $4,000 and the inventory value was
  about $40,000.

• Cylinder Casings - The Kansas City Plant stored many weapon cylinder casings even though a use had
  not been scheduled for a number of years. As yet, this inventory item had not been reviewed using the
  new approach to determine whether the storage cost exceeded the value of the casings.

• Parachutes - We observed more than 300 parachutes left over from a discontinued weapons system.
  According to officials, there had been no official request for parachutes since September 1989. Officials
  told us that disposal would be difficult because of explosive materials contained in the parachutes.

Albuquerque officials advised they would check these items, but they had not received previous requests for
disposition.

In addition, we observed at least two items that should be pursued as just-in-time candidates. The just-in-
time inventory system reduces inventory levels to the absolute minimum needed to fill orders received. This
technique often lowers inventory carrying costs and total manufacturing costs. Albuquerque officials agreed
that the Kansas City Plant should be using this technique.

• Gloves: The Kansas City Plant maintained an inventory of more than 200 types of work gloves for
  employees. According to Kansas City Plant staff, such items could be an excellent candidate for just-in-
  time procurement and management indicated that they planned to issue a contract for this purpose.

• Industrial Gases: The Kansas City Plant maintained a separate building in the complex to store industrial
  gases for use in the facility. The storage costs were expensive because special refrigeration was needed
  for certain types of gases. Such gases could be considered for just-in-time procurement if supplies were
  readily available within the local area.

We discussed these items with Albuquerque officials on May 5, 1999. The Office of Defense Programs
waived the exit conference.




Page 9                                                                                        Other Matters
Appendix 3

             SUMMARY OF PAST OFFICE OF INSPECTOR GENERAL AUDITS OF
                         KANSAS CITY PLANT ACTIVITIES


• Audit of the Department of Energy's Transportation Accident Resistant Container Program, DOE/IG-
  0380, October 1995. The Department designed and produced 87 accident resistant containers for about
  $29 million when the customer did not want them and expressed no desire to use these containers.

• Audit of the Department of Energy's Management of Precious Metals, DOE/IG-0375, June 1995. The
  Department and contractor administration of precious metals at 6 of 11 organizations was not effective
  and efficient because excess metals were on hand, additional excesses were expected to be recovered,
  and there was no method of disposing of these excess precious metals.

• Report on Allowable Costs at Department of Energy Management and Operating Contractors, DOE/
  IG-0321, February 23, 1993. DOE was generally not reimbursing M&O contractors for costs in
  categories that were specifically prohibited by the M&O contracts, as we found only three such
  instances. However, at six of the nine M&O contractors audited, we identified Fiscal Year 1991 costs
  of $5.4 million that was considered unallowable.

• Audit of Fiscal Year 1989 Cash Management Practices at Allied-Signal and Rockwell International,
  WR-OC-90-6, May 29, 1990. Neither Albuquerque, Allied, nor Rockwell had a management process in
  place to ensure compliance with federal and Department cash management procedures.




Page 10                                                                       Summary Of Past Audits
                                                                           IG Report No. DOE/IG-0450

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
        electronically through the Internet at the following alternative addresses:


       U.S. Department of Energy Management and Administration Home Page
                             http://www.hr.doe.gov/ig
                                        or
                              http://www.ma.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
